DEPARTMENT OF HOMELAND SECURITY
   Office of Inspector General



The Removal of a Canadian Citizen to Syria 

          (Unclassified Summary) 





 OIG-08-18                   March 2008
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                      March 14, 2008

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses process applied by the Immigration and Naturalization Service to determine
that Maher Arar was inadmissible to the United States and order him removed to Syria. It is based
on interviews with employees and officials of relevant agencies and institutions and a review of
applicable documents.

It is our hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report




                                      Richard L. Skinner 

                                      Inspector General 

OIG 

Department of Homeland Security
Office of Inspector General

Unclassified Summary
                         We conducted this review at the request of the then-Ranking Member of the
                         United States House of Representatives Committee on the Judiciary,
                         Representative John Conyers. We began our fieldwork in January 2004. Our
                         review examined (1) the process applied by Immigration and Naturalization
                         Service (INS) in determining that Maher Arar was inadmissible to the United
                         States; (2) the process to designate Syria as Arar’s country of removal; and (3)
                         how INS assessed Arar’s eligibility for protection under the United Nations
                         Convention Against Torture.1

                         Maher Arar, a dual citizen of Canada and Syria, arrived at John F. Kennedy
                         (JFK) International Airport on Thursday, September 26, 2002, from Zurich,
                         Switzerland. His trip originated in Tunisia. Upon his arrival, Arar applied for
                         admission to the United States so that he could transfer to his connecting
                         flight to Canada, his country of residence.

                         Arar was identified as a special interest alien who was suspected of affiliations
                         with Al-Qaeda, a terrorist organization. He was apprehended by inspectors of
                         the INS at JFK, questioned by federal agents, and transferred to a nearby
                         federal detention center. INS determined Arar inadmissible to the United
                         States on the grounds that he was a member of a foreign terrorist organization.

                         Syria was designated as Arar’s country of removal, although he specifically
                         requested to be returned to Canada. INS assessed Arar’s eligibility for
                         protection under Article 3 of the Convention Against Torture. INS determined
                         that removing Arar to Syria would be consistent with the Convention Against
                         Torture. The documents and discussion that outline the process INS used to
                         make that determination are protected by legal privileges and therefore are not
                         described in this summary.

                         On Tuesday, October 8, 2002, Arar was flown to Amman, Jordan, and Syrian
                         officials later took him into custody. After Arar returned to Canada in
                         October 2003, he alleged that he was beaten and tortured while in the custody
                         of the Syrian government.


1
 United Nations Convention Against Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment, Article
3, June 26, 1987.
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
